Corporation for Public Broadcasting


       Office of Inspector General




           ANNUAL PLAN
  October 1, 2011 to September 30, 2012
                          VISION, MISSION, AND VALUES

OUR VISION

The Office of Inspector General’s (OIG) vision is to be “agents of positive change” working
cooperatively with Corporation for Public Broadcasting (CPB) leadership and the public
broadcasting community to strengthen the programs and operations of CPB. In this effort, we
will vigilantly maintain our independence and impartial perspective, while providing helpful
advice and consultation. Internally, we will continue to refine our own business processes and
practices, while reinventing our organization and enhancing our professional skills to better
serve CPB and public broadcasting stakeholders.

OUR MISSION

The statutory mission of the OIG is to conduct independent audits, evaluations, and
investigations to provide accountability and compliance with applicable statutory requirements
and the terms and provisions of CPB contracts and grants; while promoting economy, efficiency,
and effectiveness; and deterring fraud, waste, and mismanagement in CPB programs and
operations.

OUR VALUES

OIG values guide us in our day-to-day operations, establish the ideals we strive to achieve, and
set forth the standards we maintain in performing our mission. Our office is committed to:

   •   Professionalism – OIG staff is required to follow professional, technical, and ethical
       standards applicable to our work. We are committed to do our work fairly and
       thoroughly; reporting the results of our efforts accurately and objectively; and providing
       information and assessments in a timely manner, so that it is available to assist public
       broadcasting stakeholders in making prudent business decisions.

   •   Accountability – OIG staff takes personal and professional responsibility for assuring the
       quality of our work and treating similar matters consistently based upon relevant
       information and evidence.

   •   Flexibility – OIG staff is expected to think creatively, adapt quickly to address unique
       situations encountered in assignments, and continually work to build on successful
       processes to improve internal operating practices.

   •   Teamwork – OIG staff is respectful of others; seeks common ground in working with
       managers, staff members and stakeholders; and is honest, trustworthy, and straight
       forward. We will cooperate to the extent possible to improve operations and implement
       efficiencies without compromising our independence.




                  Corporation for Public Broadcasting ♦ Office of Inspector General

                                              Annual Plan

                                                Page 1
                               FY 2O12 ANNUAL PLAN

To accomplish our statutory mission, we must not only identify and report on problems,
but also provide meaningful recommendations and assistance to management in
evaluating needed corrective actions. Thus, our mission is achieved when we:

       (1) focus our activities on the right issues at the right time;

       (2) perform our work professionally; and

       (3) report the results fairly and accurately to achieve timely and effective
           corrective action.

This means our work must be relevant, timely, and credible.

In addition to providing the traditional audit, evaluation, and investigative services, we
are committed to providing advisory and assistance services in response to requests
from management. In these instances, we will work in partnership with program and
management officials, public broadcasting entities, producers, federal and state
auditors, and independent public accountants.

Our Strategic Plan, updated in September 2006, established the following goals to
provide a framework for the annual planning process.

       9 Help CPB achieve its desired goals by providing audit, evaluation, and
         investigative services of significant benefit to CPB’s programs and operations,
         while ensuring the integrity, reliability, and independence of OIG work.

       9 Build stronger working relationships with CPB management, the public
         broadcasting community, and other professional organizations.

       9 Improve the timeliness and quality of OIG performance by adopting more
         efficient, effective, and innovative processes within the OIG.

As part of our planning process, we are in continual contact with senior managers and
program officials to identify areas where we can best serve their needs. We have also
discussed areas of concern or interest with representatives of congressional
committees. We reviewed prior audit reports and obtained ideas and suggestions from
a variety of sources including OIG staff members, other OIGs, and the Government
Accountability Office.




                 Corporation for Public Broadcasting ♦ Office of Inspector General

                                             Annual Plan

                                               Page 2
As we implement our annual plan, we will be using new approaches to help us work
more efficiently and effectively. We are currently updating our policies and procedures
so that our automated work papers contain all the information necessary to comply with
changes made to the Generally Accepted Government Auditing Standards (GAGAS).
These actions will enhance our ability to undertake new and more challenging audit and
investigative projects, while streamlining operating practices.

In addition to TeamMate, we also are using the Idea data mining software package. We
intend to use this package to maximize the effectiveness of our planning decisions and
resource allocations. This plan will assist in making recommended improvements in
some of CPB’s most critical programs, functions, and activities.

We have grouped our work for the coming year into six functional areas:

   Functional Area                                           % of Direct Hours
                                                             Expended by OIG Staff

   CPB Processes and Systems                                         5*
   Station Grants                                                    35
   Other CPB Grants and Contracts                                    25
   Investigations/Allegations                                         7
   Advisory & Assistance                                              3
   General & Administrative                                          25
                                                                    ___
   Total                                                            100%

   * In accordance with CPB’s authorizing statute, its financial statements are audited
     annually by an independent public accountant. The OIG works together with CPB
     management to assist CPB’s Audit Committee in procuring these audit services
     and in assessing the quality of the audit.


CPB PROCESSES AND SYSTEMS

Although less than 5 percent of CPB’s budget is spent on internal operations, systems,
and processes, the OIG must focus more of its resources in this area to ensure that
adequate oversight mechanisms are in place to meet management’s and the Board’s
goals to enhance governance, accountability, and transparency of CPB operations. We
have already begun to evaluate whether the Corporation’s internal controls are
adequate to safeguard resources and get the maximum value for the resources
expended. In this context, we are working with CPB’s Chief Financial Officer and
Treasurer and management staff to systematically examine CPB’s internal control
processes.




                 Corporation for Public Broadcasting ♦ Office of Inspector General

                                             Annual Plan

                                               Page 3
A central theme, for all of our work will be to evaluate the adequacy of the Corporation’s
policies, procedures, and processes. In FY 2012, we are planning to expend
approximately 5 percent of our direct hours on Corporate processes and systems.

Work in Process

       Review of Grant and Contract Provisions
In late 2010, the OIG began planning a review of CPB contract/grant terms and
conditions imposed through CPB’s procurement and grant programs. Initially, we
obtained a list of ongoing grants and contracts awarded by CPB to public broadcasting
stations, as well as, consultants, and public broadcasting organizations. During FY
2012 this listing will be updated and a sample of these agreements will be reviewed to
identify:

   •   the types of grants and contracts awarded;

   •   processes used to solicit and evaluate proposals;

   •   project funding (CPB and other sources); and

   •   accounting and reporting requirements.

The purpose of this analysis is to determine whether the agreements provide sufficient
instructions and guidance to contractors and/or grantees to ensure that CPB funds,
along with other matching funds, are properly accounted for and used for tasks
authorized by the CPB contract/grant.

Further, In FY 2012, projects will be selected for further review to determine whether
deliverables and tasks performed under the agreements were properly monitored by
CPB to ensure that the resources were properly utilized . As warranted, we will select a
sample of grants for further audit at the grantee/contractor level. These audits will
determine whether adequate controls were in place, project costs were properly
accounted for, and accurate and timely reports were submitted to CPB.


STATION GRANTS
CPB is the largest single funding source for public radio and television stations in the
public broadcasting community. CPB Community Service Grants (CSG) and
Interconnection Grants help stations serve their communities more efficiently and




                 Corporation for Public Broadcasting ♦ Office of Inspector General

                                             Annual Plan

                                               Page 4
effectively. Each year, CPB makes these grants to the more than 1,000 public
television and radio stations. These grants account for approximately 65 percent of
CPB’s annual funding. In FY 2012, we are planning to devote at least 35 percent of our
direct hours to station grant audits.

In this regard, we will review selected CPB grants awarded to stations to ensure that
each is receiving its appropriate share of public funds. In our audits, the OIG will
continue to emphasize:

   • compliance with statutory requirements and the provisions of CPB
     grants and contracts, and

   • adherence to Non-Federal Financial Support (NFFS) reporting
     requirements.

We will use the audited financial statements provided by grant recipients, as well as,
input received from CPB staff and the public, to target stations for review. To maximize
our planning effectiveness, we will begin to use our Idea data mining software to
selectively review CPB summary financial and other station grant information to identify
anomalies for further review. By combining this analysis with our knowledge of CPB
known vulnerabilities and allegations of improprieties, our office can focus our efforts on
stations needing to be brought into compliance with CPB requirements.

Work in Process

       Review of CPB Grants Awarded to Radio Bilingue, Fresno CA
In spring of FY 2011, CPB management requested the OIG to initiate a review of CPB
grants awarded to Radio Bilingue, in Fresno, CA. Field work on these grants has been
completed. Our final report on this work will be issued during the second quarter of
FY 2012.

       Review of WQED Multimedia, Pittsburgh PA

During the third quarter of FY 2011, OIG staff initiated an audit of CPB grants awarded
to WQED for fiscal years 2007, 2008 and 2009. This review focused on reviewing the
NFFS reported to CPB and compliance with accounting and applicable statutory
requirements of the Public Broadcasting Act. We anticipate we will be issuing our final
report on this audit in the first quarter of FY 2012.




                 Corporation for Public Broadcasting ♦ Office of Inspector General

                                             Annual Plan

                                               Page 5
Additional Planned Work

In selecting additional station grants for audit, we will primarily focus on entities with
identified vulnerabilities (i.e. stations receiving larger CPB grants, those undertaking
innovative efforts to deliver programming and services to the public, streamlining efforts,
requested by CPB managers, etc.). Reports will be issued highlighting problems where
adjustments to grant funding amounts are needed. Problems found will then be further
analyzed to evaluate the adequacy of CPB guidance and the sufficiency of audit
coverage by the station’s independent auditors. Where necessary, additional reports
will be issued to CPB regarding guidance and/or the adequacy of the independent
auditor’s work, so that better oversight can be provided to ensure the reliability and
acceptability of information provided to CPB.

In addition, we will expand our audits of grantee stations receiving other CPB
grants. This portion of the review will examine whether stations complied with the
terms and conditions of CPB grants, funds were utilized for authorized purposes,
and accurate and timely financial reports were filed.

With available resources, we expect to initiate at least four to five station grant audits in
FY 2012.

These include:

           •   KNME-TV, Albuquerque, NM
           •   KUFW-FM, Visula CA,
           •   WDUQ-FM, Pittsburgh PA
           •   WNYC-FM Radio Grants, New York, NY
           •   WYCC-TV & Radio Grants, Chicago, IL

OTHER CPB GRANTS AND CONTRACTS

CPB is the largest single funding source for public television and radio programming. In
accordance with its legislative mandate, CPB gives grants to organizations and
individual producers for the production or acquisition of new programs for public
television and radio. In doing so, CPB functions as a facilitator for producers pursuing
their craft. Program grants account for approximately 25 percent of CPB’s funding
distributed to stations and producers.

CPB devotes significant internal resources to working with public broadcasting
organizations and individual producers to develop and oversee grants related to the
production of television and radio programming. During FY 2012, the OIG is planning
to devote 25 percent of our direct hours to this area.




                 Corporation for Public Broadcasting ♦ Office of Inspector General

                                             Annual Plan

                                               Page 6
Additional Planned Work

       Review of CPB Grants Awarded to Pacifica Foundation Stations

During the first quarter of FY 2012, OIG staff will initiate an audit of CPB grants awarded
to the Pacifica Foundation and its 5 component stations for fiscal years 2008, 2009 and
2010. Initially, we will perform a survey to obtain an overview of Pacifica operations.

       Reviews of Other Production Grants

During Fiscal Year 2012, we plan to initiate selected reviews of other CPB grants and
contracts (e.g. production grants) to ensure that CPB funds are properly accounted for,
expenditures are accurately reported to CPB, and grantees/contractors comply with
other grant/contract requirements, and other deliverables are provided in a timely
manner. Specific audits and/or reviews planned to be initiated in FY 2012 include:

   •   CPB grants awarded to Native American Public Telecommunications, Inc.;

   •   Review of CPB, Public Broadcasting Service and Federal Funding of Grants and
       Contracts awarded to WGBH Educational Foundation during 2009, 2010 and
       2011; and

   •   CPB, Public Broadcasting Service and Federal Funding Awarded to WETA and
       Ken Burns for Production entitled “Prohibition.”


INVESTIGATIONS/ALLEGATION

The Inspector General Act requires that the OIG be a leader in the prevention and
detection of fraud, waste, and abuse, as well as, investigate any improprieties with
respect to CPB programs and operations. In addition to our continued vigilance during
our own work, the OIG must consider any allegations received from the public and or
complaints received on our hot line. When our office identifies potential violations of
criminal or civil statutes, our office must communicate and work closely with appropriate
prosecutors and investigators to develop evidence and assist in presenting resulting
cases. Time spent on these efforts, will be reported under this function. Overall, we
plan to utilize 7 percent of our direct hours in this area in 2012.

In each instance where a complaint is received, a preliminary evaluation will be made to
assess the potential impact and merits of the complaint, identify the extent of CPB
funding involved, and develop a strategy to address the complaint. In some cases, the




                 Corporation for Public Broadcasting ♦ Office of Inspector General

                                             Annual Plan

                                               Page 7
complaint may be referred to other CPB officials. In other instances, an audit,
evaluation, or a formal investigation will be initiated.

OIG staff will perform the preliminary review and any audit work that is required based
on the significance and nature of the improprieties and the availability of staff. If a
formal criminal investigation is necessary, we will request assistance from another OIG
office or procure the services of a criminal investigative firm under an OIG contract.

Work in Process

The OIG has one active case open pending further review.

Whistleblower Policy
CPB’s Whistleblower policy was designed to encourage “CPB directors, officers and
employees to report suspected waste, fraud, abuse, mismanagement, violations of law,”
or violations of the CPB Ethics Codes to CPB’s General Counsel or the Inspector
General. The policy also protects the whistleblower from retaliation. Modeled on the
Federal Whistleblower Protection Act, the policy gives the Inspector General primary
responsibility to investigate whistleblower complaints for the CPB. The CPB policy
protects both the confidentiality of whistleblowers and the resulting reports to the fullest
extent possible.

During FY 2012, we will be finalizing an Investigations Manual to provide uniform
procedures and policies to meet our criminal investigative responsibilities under the
Inspector General Act and CPB policies.


ADVISORY AND ASSISTANCE SERVICES
In past years, we have been asked to perform various projects. These projects included
special requests to audit an organization, perform a review or study to answer a specific
question, or resolve a problem. These requests cannot be planned, but to provide
maximum service to CPB, we will respond to any and all requests as timely as
resources permit. We will plan such assignments as the need arises during the year.
We plan to provide up to 3 percent of our direct hours to this area in FY 2012.




                 Corporation for Public Broadcasting ♦ Office of Inspector General

                                             Annual Plan

                                               Page 8
GENERAL AND ADMINISTRATIVE
This function is used to identify time spent on key OIG managerial, communication,
liaison, and administration activities. In FY 2012, key activities include:

    • Planning:
        - Strategic Planning
        - Annual Planning

    • Updating OIG Policies and Procedures

    • Communications:
       - Council of Inspectors General for Integrity and Efficiency
       - Government Accountability Office
       - Congressional Relations

    • Legal Support

    • Resolution of Report Recommendations and Implementation of Corrective
      Actions

    • Administrative Activities

We anticipate that these activities will utilize 25 percent of our direct hours during Fiscal
Year 2012.


                     FY 2012 PERFORMANCE INDICATORS
During this year we will initiate 8 to 10 new audits, evaluations, or investigations and
issue 10 or more completed final reports related to OIG work. These assignments will
involve reviews of compliance with grant requirements and accountability over CPB
funds at public broadcasting stations and/or program producers. They will also focus on
the adequacy of CPB systems and procedures to provide oversight and accountability
of CPB funded activities.

In addition, we will continue to work with CPB’s Board of Directors and CPB
management to strengthen OIG and CPB audit and recommendation resolution
processes to achieve more timely agreements on corrective actions to be taken, and
keep up to date regarding the actual progress made to implement needed reforms. We
will also assist CPB management in evaluating the effectiveness of newly implemented
control processes.




                 Corporation for Public Broadcasting ♦ Office of Inspector General

                                             Annual Plan

                                               Page 9
OIG management is committed to work closely with CPB managers to enhance CPB’s
governance, accountability, and transparency, while improving the efficiency and
effectiveness of CPB and OIG management activities. The OIG will continue to educate
station managers through use of our OIG reports and our participation in the Public
Broadcasting Management Association Annual Conference. We will continue to work
cooperatively with CPB to provide necessary oversight of the audit of CPB financial
statements.

During fiscal year 2012, the OIG will focus on updating its audit and investigative
procedures to reflect recent changes to professional standards and update our
TeamMate automated work papers software to support improved OIG operating
procedures. We will ensure that OIG staff members receive required training to
maintain their professional expertise so we can provide the Corporation with our
technical expertise in a continually changing environment.

We will report our accomplishments to the Board of Directors at the end of FY 2012.




                 Corporation for Public Broadcasting ♦ Office of Inspector General

                                             Annual Plan

                                               Page 10
Corporation
for Public
Broadcasting

401 Ninth Street, NW
Washington, DC 20004-2129
(202) 879-9600
www.cpb.org/oig
